Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   THE COMMISSIONED CORPS’

   RESPONSE TO HURRICANES 

      KATRINA AND RITA





                    Daniel R. Levinson

                     Inspector General 


                      February 2007

                     OEI-09-06-00030

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                   S U M M A R Y                                          



                  OBJECTIVE
                  1.	 To evaluate the U.S. Public Health Service Commissioned Corps’
                      (the Corps) response to Hurricanes Katrina and Rita.

                  2.	 To identify whether and how the Corps could improve its response to
                      public health emergencies.


                  BACKGROUND
                  The U.S. Public Health Service Commissioned Corps, one of seven U.S.
                  uniformed services, is made up entirely of officers commissioned on the
                  basis of their health-related training. Agencies within and outside the
                  Department of Health and Human Services (the Department) employ
                  Corps officers to provide health care and related services in health
                  professional shortage areas. In addition, the Secretary of the
                  Department has the authority to deploy the Corps in response to public
                  health emergencies. Hence, Corps officers must simultaneously fulfill
                  their responsibilities to their employer agency and to the Corps.

                  In August and September 2005, respectively, Hurricanes Katrina and
                  Rita struck the Gulf Coast. In response to health care and public health
                  needs in the affected areas, the Corps carried out the largest
                  deployment in its 207-year history. More than 2,100 officers worked
                  with State, local, and private agencies in response to the hurricanes.

                  Since 2003, the Corps has been engaged in a continuous effort to
                  improve its response capacity. On January 18, 2006, the Secretary
                  announced the latest phase in this effort, in which the Corps will
                  increase the number of officers by 10 percent, create a team-oriented
                  deployment process, and improve the recruitment process.

                  For this evaluation, we: (1) surveyed a stratified random sample of
                  350 Corps officers; (2) analyzed Corps administrative databases;
                  (3) interviewed and collected documentation from Corps field
                  commanders, Corps management components, and the Office of the
                  Assistant Secretary for Preparedness and Response (ASPR, then known
                  as the Office of Public Health Emergency Preparedness); (4) interviewed
                  State health officials; and (5) interviewed seven agencies that employ
                  Corps officers.




OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   i
E X E C U T I V E              S U     M M A R Y 




                   FINDINGS
                   Commissioned Corps officers deployed in response to Hurricanes
                   Katrina and Rita provided valuable services, but the Corps could
                   improve its response to public health emergencies. The
                   Commissioned Corps provided valuable support to States, but more
                   officers—especially nurses, mental health professionals, and dentists—
                   were needed. While most deployed officers met Corps readiness
                   standards, many lacked experience, effective training, and familiarity
                   with response plans. Agencies were unwilling or unable to allow some
                   officers to deploy, while logistical difficulties delayed others’ arrival in
                   the field. Confusion surrounded some officers’ arrival, but most field
                   assignments were appropriate and officers felt safe at their locations.
                   Most officers were equipped adequately, but some lacked working
                   communications devices and other basic tools. Many officers personally
                   incurred mission-related expenses and some were not reimbursed
                   promptly, which could affect their ability to deploy to future public
                   health emergencies.


                   RECOMMENDATIONS
                   Although the transformation of the Corps may alleviate many of the
                   issues it experienced in responding to Hurricanes Katrina and Rita, the
                   Corps also should take the following actions to improve its effectiveness
                   and efficiency:
                   Institute more effective training for Corps officers. The Corps should
                   implement more hands-on, focused training and seek funding to allow
                   Corps officers to be paid for time spent in training.
                   Improve the system used to contact officers for deployment. The
                   Corps should develop a system to quickly and reliably contact officers
                   for deployment.
                   Work with the Office of the Assistant Secretary for Preparedness
                   and Response to streamline deployment-related travel. The Corps
                   should work with the Office of the Assistant Secretary for Preparedness
                   and Response to establish a system for rapid deployment.
                   Stagger deployments to ensure continuity of operations. The Corps
                   should stagger deployments to mitigate the loss of experience as officers
                   end their tours, especially during lengthy responses.




 OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   ii
E X E C U T I V E              S U     M M A R Y


                   Improve its ability to coordinate mission assignments and
                   communications in the field. The Corps should work with the Office of
                   the Assistant Secretary for Preparedness and Response to develop more
                   effective systems to ensure that officers arrive when and where they are
                   needed with a clear understanding of their assignments and to increase
                   the variety of communications equipment available to officers.
                   Ensure that all deployable officers have Federal Government travel
                   credit cards. All deployable officers should have official Government
                   travel credit cards with which to make mission-related purchases so
                   they do not use personal accounts. The Corps should work with the
                   Office of the Assistant Secretary for Preparedness and Response to
                   review the procedures used to reimburse officers for mission-related
                   expenses.


                   AGENCY COMMENTS
                   The Assistant Secretary for Health agreed with the Office of Inspector
                   General’s (OIG) recommendations for improving the Corps’ response to
                   public health emergencies. As part of the Corps’ comprehensive
                   transformation process and its efforts to improve the Office of Force
                   Readiness and Deployment’s practices, the Corps is currently
                   addressing OIG’s recommendations.

                   This evaluation was conducted in conjunction with the President’s
                   Council on Integrity and Efficiency (PCIE) as part of its examination of
                   relief efforts provided by the Federal Government in the aftermath of
                   Hurricanes Katrina and Rita. As such, a copy of the report has been
                   forwarded to the PCIE Homeland Security Working Group, which is
                   coordinating Inspectors General reviews of this important subject.




 OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   iii
Δ   T A B L E         O F           C O N T E N T S                              




           EXECUTIVE SUMMARY .................................... i




           INTRODUCTION ........................................... 1




           FINDING            .................................................                                          8

              Response valuable, but some shortcomings . . . . . . . . . . . . . . . . . . . . . . . 8 




           R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




           A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

               A: 	 Commissioned Corps Employer Agencies

                    and Professional Categories . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                B: Commissioned Corps Management Structure . . . . . . . . . . . . . . . . . 18 


                C: Commissioned Corps Standards of Readiness . . . . . . . . . . . . . . . . . 19 


               D: Emergency Support Function #8 . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                E: Statistical Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 




           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

Δ   I N T R O D U C T I O N                               



                  OBJECTIVES
                  1.	 To evaluate the U.S. Public Health Service Commissioned Corps’
                      (the Corps) response to Hurricanes Katrina and Rita.

                  2.	 To identify whether and how the Corps could improve its response to
                      public health emergencies.


                  BACKGROUND
                  The U.S. Public Health Service Commissioned Corps is one of seven
                  U.S. uniformed services. The Corps is made up entirely of officers who
                  were commissioned on the basis of their health-related training. A
                  primary purpose of the Corps is to provide health care and related
                  services to health professional shortage areas.1 The Secretary of the
                  Department of Health and Human Services (the Secretary) has the
                  authority to deploy the Corps in response to public health emergencies,2
                  and the President may utilize the Corps in time of war or emergency.3
                  Although the Corps recruits officers, those officers actually are
                  employed by other agencies within and outside the Department. Hence,
                  Corps officers must simultaneously fulfill their responsibilities to their
                  employer agency and the Corps. Officers provide a variety of
                  professional skills to their employer agencies, including clinical,
                  environmental health, and engineering services. (See Appendix A for a
                  complete list of Department and external agencies that employ Corps
                  officers and the professional categories of skills that Corps officers
                  provide.)
                  2003 Transformation
                  In 2003, the Corps developed a transformation plan that reorganized its
                  management structure, revised its officers’ standards of readiness, and
                  created a new mission statement. The Corps implemented the


                  1 As defined by 42 U.S.C. § 254e(a), the term “health professional shortage area” means
                  “(A) an area in an urban or rural area (which need not conform to the geographic
                  boundaries of a political subdivision and which is a rational area for the delivery of health
                  services) which the Secretary determines has a health manpower shortage and which is not
                  reasonably accessible to an adequately served area, (B) a population group which the
                  Secretary determines has such a shortage, or (C) a public or nonprofit private medical
                  facility or other public facility which the Secretary determines has such a shortage.”
                  2 42 U.S.C. § 247d(a).
                  3 42 U.S.C. § 217.




OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA     1
I N T R O D        U C T         I O N


                    transformation plan before Hurricanes Katrina and Rita struck. The
                    Corps is structured as follows.
                    The Corps’ management structure. The Assistant Secretary for Health
                    administers the Public Health Service4 within the Office of Public
                    Health and Science. Pursuant to Title 42 of the United States Code
                    (U.S.C.) § 204, the Corps is a component of the Public Health Service.5
                    Within the Office of Public Health and Science, the Office of
                    Commissioned Corps Force Management and the Office of the Surgeon
                    General form the broad management structure of the Corps. The Office
                    of Commissioned Corps Force Management establishes performance
                    standards and measurements for the Corps, while two offices in the
                    Office of the Surgeon General handle most other Corps functions.
                    Within the Office of the Surgeon General, the Office of Commissioned
                    Corps Operations (OCCO) administers the Corps’ day-to-day operational
                    functions, including general training, career development, and other
                    personnel functions. The Office of Force Readiness and Deployment
                    (OFRD) administers deployment training and readiness, contacts
                    officers for deployments, and assembles deployment rosters. The Office
                    of the Assistant Secretary for Preparedness and Response (ASPR, then
                    known as the Office of Public Health Emergency Preparedness), located
                    in the Office of the Secretary, handles travel and other logistics for
                    deployed officers. (See Appendix B for more details on Corps
                    management.)
                    The Corps’ standards of readiness. Unless Corps officers are exempted,
                    they are required to meet certain standards of readiness prior to being
                    placed on an OFRD deployment roster. The Corps’ standards of
                    readiness consist of health and safety requirements (such as
                    immunizations), physical readiness, and training and competency
                    standards. According to former Surgeon General Richard Carmona,
                    72 percent of Corps officers met the standards of readiness as of October
                    2005, up from the 23 percent who met the standards in January 2003.6



                    4   42 U.S.C. § 202.

                    5For a historical description of the U.S. Public Health Service Commissioned Corps visit 

                    U.S. Public Health Service Commissioned Corps, “The History of the Commissioned Corps.”
                    Available online at http://www.usphs.gov/html/history.html. 

                    6Letter from former Surgeon General Richard Carmona to all commissioned officers, 

                    October 3, 2005. Available online at 

                    http://dcp.psc.gov/PDF_docs/SGLetterreadinessOct305.htm. Accessed December 12, 2005. 




 OEI-09-06-00030    THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   2
I N T R O D        U C T      I O N


                    (See Appendix C for the standards of readiness as of October 2005.7)
                    The Corps’ mission statement. At the time of Hurricanes Katrina and
                    Rita, the Corps’ mission statement was as follows: “Protecting,
                    promoting, and advancing the health and safety of the Nation. As
                    America’s uniformed service of public health professionals, the
                    Commissioned Corps achieves this mission through:

                    •      Rapid and effective response to public health needs,

                    •      Leadership and excellence in public health practices, and

                    •      The advancement of public health science.”
                    Deploying the Commissioned Corps
                    The Department’s Concept of Operations Plan (CONOPS)8 establishes
                    the framework for managing and coordinating its response to public
                    health and medical emergencies. The CONOPS is coordinated with
                    other emergency response plans, such as the National Response Plan.9
                    Under the National Response Plan, Emergency Support
                    Function #8 (ESF #8) provides the mechanism for coordinated Federal
                    assistance to supplement State, local, and tribal resources in response
                    to public health care needs. To request resources such as Corps officers
                    or supplies during a public health emergency, State health officials are
                    required to submit an action request form to the Federal Emergency
                    Management Agency (FEMA), which generally will be collocated with
                    other Federal, State, and local agencies in a temporary joint field office.
                    Once FEMA approves the request, it will issue a mission assignment to
                    the Department, which will mobilize the requested resources. (See
                    Appendix D for a flowchart depicting this process.)

                    Once the Secretary authorizes the Corps to deploy, the Assistant
                    Secretary for Health establishes the scope, size, and duration of the
                    deployment. At the request of the Assistant Secretary for Health, the
                    Surgeon General deploys the Corps and manages day-to-day operations
                    in cooperation with the ASPR. These two officials are charged with
                    ensuring that Corps officers with the appropriate skills are deployed
                    when necessary. Within the Surgeon General’s office, OFRD contacts

                    7 “MANUAL CIRCULAR – COMMISSIONED CORPS PERSONNEL PHS NO. 377.” 

                    Available online at http://dcp.psc.gov/PDF_docs/Man_circ_377.pdf. Accessed 

                    December 12, 2005. 

                    8 U.S. Department of Health and Human Services, “Concept of Operations Plan (CONOPS)

                    for Public Health and Medical Emergencies,” June 2006. 

                    9 U.S. Department of Homeland Security, “National Response Plan,” December 2004. 





 OEI-09-06-00030    THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   3
    I N T R O D          U C T       I O N


                           Corps officers and their employer agencies to request the mobilization.
                           If an officer is able to deploy and his or her agency supervisor approves
                           the deployment, OFRD places the officer on a deployment roster. ASPR
                           receives the deployment rosters from OFRD and makes the officers’
                           travel arrangements through a contractor.
                           The Corps’ Response to Hurricanes Katrina and Rita
                           In late summer and early fall 2005, Hurricanes Katrina and Rita
                           devastated the Gulf Coast. On August 29, Hurricane Katrina made
                           landfall in Louisiana as a Category 3 storm, causing an estimated
                           $81 billion in damage and 1,833 deaths.10 On September 24, Hurricane
                           Rita made landfall between Texas and Louisiana, also as a Category
                           3 storm, causing estimated total damage of $10 billion and at least
                           62 deaths.11
                                In response to health care and public health needs in the areas affected
                                by the hurricanes, the Corps carried out the largest deployment in its
                                207-year history. According to Corps administrative data, 2,119 of the
                                6,122 Corps officers (35 percent) on active duty between August 26 and
                                                        November 7, 2005, deployed at least once in
Table 1: Corps Deployment Locations                     response to Hurricanes Katrina or Rita. These
Mission location               Number        Percentage officers served a total of 2,372 missions (some
                                                        officers deployed more than once). The Corps
Louisiana                          814            45.8%
                                                        itself deployed officers for 1,777 of these missions
Mississippi                        453            25.5% (75 percent), while agencies that employed Corps
Washington, DC/Maryland            283            15.9% officers deployed the remainder. As shown in
Texas                              184            10.4%
                                                        Table 1, officers deployed by the Corps served
                                                        mainly in States directly affected by the
Georgia                             43             2.4%
                                                        hurricanes—Louisiana, Mississippi, and Texas—
                      Total      1,777           100.0% though a significant number filled roles in
Source: Office of Inspector General analysis of Corps   national and regional headquarters.12 Of officers
administrative data, 2006.                              deployed to the Gulf Coast, 81 percent served on


                           10 National Hurricane Center. “Tropical Cyclone Report, Hurricane Katrina,

                           23-30 August 2005.” December 20, 2005, updated August 10, 2006. Available online at
                           http://www.nhc.noaa.gov/pdf/TCR-AL122005_Katrina.pdf. Accessed August 12, 2006.
                           11 National Hurricane Center. “Tropical Cyclone Report, Hurricane Rita,

                           18-26 September 2005.” March 17, 2006, updated August 14, 2006. Available online at
                           http://www.nhc.noaa.gov/pdf/TCR-AL182005_Rita.pdf. Accessed August 14, 2006.
                           12 Federal disasters were declared in Alabama, Florida, Louisiana, and Mississippi for

                           Hurricane Katrina and in Louisiana and Texas for Hurricane Rita. However, Alabama and
                           Florida did not request assistance that resulted in Corps deployments.



       OEI-09-06-00030     THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   4
I N T R O D        U C T       I O N


                    teams that rendered direct services to affected communities and
                    19 percent served on the Secretary’s Emergency Response Teams or at
                    local operations centers, such as Camp Phoenix in Baton Rouge.
                    Corps 2006 Transformation
                    On January 18, 2006, the Secretary announced that the Corps’
                    transformation would continue into its next phase, which would enable
                    it to address public health challenges more quickly and efficiently.
                    From February through March 2006, the Corps developed strategies to
                    increase its size and improve its ability to respond quickly to urgent
                    public health needs by:

                         •	   Increasing the number of officers by 10 percent, to a total of
                              6,600;

                         •	   Improving response operations and team-oriented deployment
                              processes; and

                         •	   Changing the recruitment process so that it includes stronger
                              personal incentive programs and a better approach for assigning
                              officers.13
                    Rapid Deployment Force and Health and Medical Response Team. In response
                    to recommendations 57c and 60 of the White House report, “The Federal
                    Response to Hurricane Katrina: Lessons Learned,”14 in 2006 the Corps
                    commenced implementing a tiered response plan, which will include a
                    Rapid Deployment Force (RDF).15 The Corps also is developing plans for a
                    Public Health Service Health and Medical Response (HAMR)16 team.
                    The Corps’ response plan will consist of four response tiers:

                         •	   Tier one will constitute the RDF. The RDF will be strategically
                              located in multiple locations and staffed for rapid deployment
                              across the Nation. Tier one will be expected to report to a point
                              of departure within 12 hours of notification.


                    13 U.S. Department of Health and Human Services news release, “New Initiative 

                    Announced to Transform the US Public Health Service Commissioned Corps,” 

                    January 18, 2006. Available online at 

                    http://www.os.dhhs.gov/news/press/2006pres/20060118.html. Accessed January 18, 2006. 

                    14 Frances Fragos Townsend, “The Federal Response to Hurricane Katrina: Lessons

                    Learned,” February 2006. 

                    15 Letter from RADM John Babb, U.S. Public Health Service Commissioned Corps, to Corps 

                    officers, April 28, 2006. 

                    16 “Transformation Working Group on Readiness,” February 2006. 





 OEI-09-06-00030    THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   5
      I N T R O D           U C T       I O N


                                   •	   Tier two also will be strategically located for rapid deployment
                                        across the Nation and staffed with applied public health and
                                        mental health teams. However, tier two will be expected to
                                        report to a point of departure within 36 hours of notification.

                                   •	   Tier three will consist of officers not placed in tier one or two.
                                        Tier three will be expected to report to a point of departure
                                        within 72 hours of notification.

                                   •	   Tier four will consist of officers in the Corps’ inactive reserve.
                                        There is no specific time requirement for reporting to a point of
                                        departure upon notification.

                              Under the HAMR team concept, the Corps would create and maintain a
                              cadre of full-time, equipped teams dedicated to training for and
                              responding to public health emergencies.


                              METHODOLOGY
                              For this evaluation, we: (1) surveyed a stratified random sample of
                              200 deployed Corps officers and 150 Corps officers who did not deploy;
                              (2) analyzed Corps administrative databases; (3) interviewed and
                              collected documentation from Corps field commanders, Corps
                              management components, and ASPR officials; (4) interviewed State
                              health officials; and (5) interviewed selected agencies that employ Corps
                              officers.
                                        Corps officer surveys. To obtain perspectives about the Corps’ emergency
                                        response operations, we surveyed a stratified random sample of Corps
                                                                     officers. We administered two surveys: one
  Table 2: Corps Officer Survey Characteristics
                                                                     to 200 officers who deployed in response to
  Stratum
                          Population          Sample     Response    Hurricanes Katrina and/or Rita between
                               Count           Count        Count
                                                                     August 26 and November 7, 2005; and one
  Deployed                     2,173             200          197    to 150 officers who did not deploy during
                                                                     that period.17 Our sampling method allowed
  Nondeployed                  3,949             150          133
                                                                     us to project the results of the survey to the
             Total             6,122             350          330    population of all officers who were on the
Source: Office of Inspector General, 2005.                           Corps roster during that time. Appendix E
                                                                     contains statistical confidence intervals for
                                        all projected survey figures presented in this report. We received

                              17 We selected this time period to obtain information about the initial experiences that
                              officers encountered during Hurricanes Katrina and Rita.



         OEI-09-06-00030      THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA    6
I N T R O D        U C T      I O N


                    197 responses from deployed officers and 133 responses from
                    nondeployed officers, for an overall response rate of 94 percent. Ten
                    officers whom we selected as part of the deployed sample indicated in
                    the survey that they had not deployed, and nine selected as part of the
                    nondeployed sample indicated that they had deployed. Hence, our
                    analysis refers to 196 deployed and 134 nondeployed officers.
                    Table 2 (previous page) shows population, sample, and response counts
                    for the officer survey.
                    Corps administrative databases. At the time of our evaluation, the Corps
                    maintained several databases with personnel, readiness, and historical
                    deployment information for all of its officers (it has since combined
                    those separate databases into a single system). We used information
                    from these databases to identify our universe of deployed and
                    nondeployed officers and to analyze officers’ deployment history and the
                    extent to which they met the standards of readiness. We did not
                    validate the information contained in these databases.
                    Field commanders and Corps’ management components. To gain insight into
                    Corps field operations, we interviewed and obtained documentation from the
                    seven field commanders who managed Corps emergency response operations
                    throughout Louisiana, Mississippi, and Texas. We also interviewed and
                    obtained documentation about the Corps’ responses to Hurricanes Katrina
                    and Rita from each of the Corps management components.
                    State health officials. To gather stakeholder perspectives on the Corps’
                    responses to Hurricanes Katrina and Rita, we interviewed State health
                    officials in Louisiana, Mississippi, and Texas.
                    Agencies that employ Corps officers. To understand the viewpoint of
                    agencies that employ Corps officers, we interviewed officials at seven
                    agencies that together employed 87 percent of the officers in our sample.18
                    These included both Department and external agencies.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.


                    18 These agencies were the Indian Health Service, the Centers for Disease Control and
                    Prevention, the Food and Drug Administration, the Health Resources and Services
                    Administration, the Bureau of Prisons, the National Institutes of Health, and the
                    Department of Homeland Security.



 OEI-09-06-00030    THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   7
 Δ       F I N D I N G              




        Commissioned Corps officers deployed in                The Corps provided valuable
 response to Hurricanes Katrina and Rita provided              assistance in response to the
                                                               public health threats triggered by
valuable services, but the Corps could improve its
                                                               Hurricanes Katrina and Rita and
           response to public health emergencies
                                                               addressed the health care needs
                       of those affected. Officers provided critical clinical and environmental
                       health and engineering services to affected communities and valuable
                       support to State health officials. However, the Corps was not able to
                       meet some State needs. Furthermore, deficiencies in officer
                       preparation, deployment logistics, field operations, and officer
                       reimbursement diminished the effectiveness and efficiency of the
                       response.
                       Corps officers provided valuable support to States but could not meet
                       some needs
                       Corps officers in Joint Field Offices worked side-by-side with State
                       officials, and both partners generally reported very positive working
                       relationships. According to State health officials, these officers
                       integrated “seamlessly” into emergency operations centers in the early
                       days of the response. Perhaps most important to State health officials,
                       Corps officers helped the States identify and understand the Federal
                       assets available for their use. They also helped States understand the
                       situation on the ground in affected areas. One State health official
                       reported, “There were some lessons learned, but overall we got what we
                       needed. They were extremely beneficial.”

                       Overall, approximately 67 percent of officers deployed by the Corps
                       served on teams that provided health care and public health services in
                       hurricane-affected areas. State health officials credited these officers
                       with saving many lives. Officers employed their clinical skills to
                       provide a variety of services, including primary and emergent care,
                       pharmacy, and veterinary medicine. Meanwhile, Corps environmental
                       health officers and engineers helped assess and counter public health
                       threats caused by the hurricanes and subsequent flooding.

                       Although State health officials generally were satisfied with the relief
                       services the Corps provided, some needs were not met, especially in the
                       nursing, mental health, and dental areas. Corps officers and field
                       commanders also identified the need for more nursing and mental
                       health professionals, the latter for both hurricane victims and response
                       personnel. One State health official noted that a small number of Corps


     OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   8
F   I N D I N G 



                      officers lacked adequate skills in administering immunizations and
                      providing primary, acute, and emergent care.
                      Although most deployed Corps officers met readiness standards, many
                      lacked experience, effective training, and familiarity with response plans
                      Readiness. According to our survey, 96 percent of the officers who
                      deployed in response to Hurricanes Katrina and Rita met the Corps’
                      readiness standards.19 This preparation helped the Corps better
                      respond to the hurricanes: 70 percent of deployed officers said that
                      meeting the standards helped improve their performance in the field.
                      Officers deployed to hurricane-affected areas were significantly more
                      likely than those deployed to national or regional command centers to
                      state that meeting the standards improved their performance.

                      Although this level of readiness is valuable, attaining it exacts a cost.
                      As agency employees, officers must negotiate with their supervisors for
                      time to maintain their readiness. If they cannot obtain sufficient time
                      during working hours, officers must use personal time to meet the
                      standards. According to our survey, 28 percent of officers spend more
                      than 15 hours of personal time each month keeping up with the
                      standards. Approximately 12 percent of officers, mainly those who
                      reported having young children or a regular workweek that greatly
                      exceeded 40 hours, stated that maintaining their readiness status
                      creates a significant hardship for them.
                      Experience. Fifty-two percent of the Corps officers deployed in response
                      to the hurricanes had no previous deployment experience, which
                      hindered the Corps’ overall effectiveness. Field commanders reported
                      that inexperienced officers were unfamiliar with response protocols and
                      that more experienced personnel had to spend time training and
                      orienting the new officers in the field. Furthermore, the Corps’
                      standard 2-week deployment meant that these inexperienced officers
                      often left the relief operation soon after they had become comfortable in
                      their roles. To counter this, some officers voluntarily extended their
                      tours; nevertheless, 80 percent of deployments lasted 15 or fewer days.
                      Although all interview respondents noted the lack of experience as a
                      problem, the Corps did not use many of its experienced officers in the
                      response. Of all officers deployed by the Corps or their employer



                      19 Corps administrative data show that approximately 85 percent of deployed Corps officers
                      met the readiness standards at the time of deployment.



    OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   9
    F   I N D I N G


                                      agencies, only 57 percent of the experienced officers on the Corps’ active
                                      duty roster deployed for hurricane relief operations.

                                      The number of inexperienced officers increased as the response to
                                      Hurricane Katrina continued and Hurricane Rita arrived. Field
                                      commanders and State health officials noted that while the initial wave
                                      of officers was relatively experienced, officers deployed later were less
                                      experienced. Corps administrative data support this perception,
                                      showing that the proportion of officers with previous deployment
                                      experience steadily declined as the response continued. (See
                                      Table 3 below.) One field commander stated, “ . . . [The] Corps threw
                                      everything into Katrina—[we] didn’t have the resources to reload for
                                      Rita.”

   Table 3: Previous Experience of Deployed Officers, by Week, in 2005

                                                                               Week Starting

                           22-Aug         29-Aug       5-Sep     12-Sep        19-Sep            26-Sep               3-Oct         10-Oct   17-Oct   24-Oct
 Number of
                                 48           541        224         125            307               134                  102         54       46          42
 officers
 Percentage with
                              69%            54%         57%        50%            44%               37%               36%           35%      35%          24%
 experience

Source: Office of Inspector General analysis of the Corps’ administrative data, 2006.




                                      Training. Certain respondents viewed Corps training prior to the
                                      hurricanes as ineffectual in some respects. Thirty-six percent of
                                      deployed officers stated that their Corps training did not adequately
                                      prepare them for field operations; some field commanders agreed. Most
                                      commonly, officers said that the Corps’ computerized training modules
                                      were overly broad and did little to prepare them for the conditions and
                                      situations they encountered during the response. Officers called for
                                      more hands-on practical training. About 24 percent of the surveyed
                                      officers volunteered that team-based training, as outlined in the Corps
                                      2006 transformation, would have been beneficial.20 Some officers, about
                                      13 percent of those surveyed, expressed concern that their agency
                                      workloads limited their opportunity to undergo Corps training. This




                                      20 We did not solicit input on particular ways to enhance Corps’ training but instead asked
                                      generally how Corps training and emergency response could be improved.



        OEI-09-06-00030               THE COMMISSIONED CORPS’ RESPONSE       TO   H U R R I C A N E S K AT R I N A   AND   R I TA                     10
F   I N D I N G 



                      situation, they said, could be improved by providing Corps funding and
                      dedicated time for training courses and exercises.
                      Familiarity with response plans. Many deployed officers were unfamiliar
                      with the framework for public health emergency response—only
                      37 percent were familiar with the CONOPS and 61 percent with
                      ESF #8. As the primary guides to the responsibilities of the
                      Department in response to a terrorist attack or natural disaster, these
                      documents are an important part of the incident command structure.
                      The field commanders we interviewed all agreed that deployed officers
                      should be familiar with ESF #8, but some believed that it was less
                      important that officers be familiar with CONOPS.
                      Agencies were unwilling or unable to allow some officers to deploy;
                      logistical difficulties delayed others’ arrival in the field
                      Agency release. According to our survey of Corps officers, 17 percent of
                      the officers who did not participate in the Corps’ response to the
                      hurricanes received requests to deploy that they could not fulfill.
                      Agency responsibilities prevented 56 percent of this group from
                      deploying, generally because the officers could not obtain supervisory
                      approval. For example, one officer related that his agency supervisor
                      stated that the officer’s priority was the agency rather than hurricane
                      relief. Agencies could not spare others because the officers’ primary
                      work locations already were understaffed or because the agencies
                      needed them for their own response operations.
                      Logistical difficulties. Delays in notification and travel challenges meant
                      that Corps officers were not always available when and where they
                      were expected. Although the first wave of Corps officers arrived
                      quickly, replacements arrived 2 to 3 days after the State’s request.
                      Several Corps field commanders and State health officials reported that
                      delays led to difficulties in the field. For example, one State health
                      official stated that beyond the first cadre of officers, “by the time
                      they . . . arrived, our needs had changed.”

                      Many Corps officers did not receive the requests to deploy until well
                      after they were made, which delayed their travel significantly.
                      Forty-six percent of officers who were requested to deploy received the
                      requests more than 12 hours after they were sent, and 13 percent
                      received them after a delay of more than 72 hours. More than half of
                      the officers (55 percent) contacted for Hurricanes Katrina and Rita said
                      the contact method used by the Corps was not ideal. For example,



    OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   11
F   I N D I N G 



                      28 percent of officers told us that the best way to contact them was via
                      personal cell phone, but only 9 percent were contacted that way.

                      Once officers received notifications, the travel system used for
                      deployments presented further challenges. One-half of deployed Corps
                      officers departed more than 48 hours after receiving the initial requests,
                      and 29 percent left more than 72 hours afterward. The most frequently
                      cited problem was obtaining approved travel orders for flights, ground
                      transportation, and lodging. Our interview respondents attributed this
                      to difficulties with the travel coordinator contracted for the response as
                      well as to the impact of the hurricanes on flight schedules and other
                      travel components.
                      Confusion surrounded some Corps officers’ arrival in the field, but most
                      field assignments were appropriate and officers felt safe at their locations
                      According to our survey, 37 percent of officers did not receive clear
                      direction on their assignments during field operations. Because they
                      were unsure what to do, 10 percent of officers were unable to
                      immediately begin relief operations upon arriving in the field.
                      Furthermore, 15 percent of officers were initially sent to the wrong
                      locations or to locations where their skills were not needed, meaning
                      that they could not start rendering services until their situations were
                      resolved. Although incoming travel delays and local transportation
                      deficiencies contributed to the problem, poor communication and the
                      lack of a formal system to track officers’ movements were major factors
                      according to our respondents.
                      Once they commenced field operations, most Corps officers were
                      satisfied with their assigned duties. Approximately 87 percent of
                      deployed Corps officers reported that their field assignments made
                      appropriate use of their professional skills. Some, though, were not
                      used effectively. For example, one State health official used a team of
                      surgeons to assess special needs shelters, which he conceded was
                      “probably a misuse of their skills.” Several survey respondents noted
                      that their professional skills went unused—for example, one dentist was
                      assigned as a supply officer—but few believed the assignments were
                      inappropriate in the context of the overall response.

                      Deployed officers generally viewed their personal security and that of
                      supplies as adequate. According to our survey, about 82 percent of
                      officers believed that both they and the medical and other supplies at
                      their locations were safe. A few reported that supplies, especially
                      pharmaceuticals, were not secured adequately and “disappeared” on

    OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   12
F   I N D I N G 



                      occasion. Several others indicated that the behavior of patients and
                      their families caused them to feel unsafe because of insufficient security
                      personnel at their sites.
                      Most officers were equipped adequately, but some lacked working
                      communications devices and other basic tools
                      Deployed Corps officers generally had the tools they needed to do their
                      jobs but sometimes lacked certain equipment or supplies. Although
                      78 percent of officers believed that they had been issued necessary
                      equipment, some officers and field commanders reported that they had
                      not had functioning communications equipment or had been forced to
                      use their personal cell phones (at their own expense) to communicate.
                      Having a greater variety of redundant communications equipment, such
                      as satellite phones and walkie-talkies in addition to cell phones, would
                      have helped when one mode was inoperable. Other needs that survey
                      respondents mentioned included pharmaceuticals, medical reference
                      texts, additional food and water, and beds that could accommodate
                      obese patients. Several officers stated that if they and their colleagues
                      had not brought personal medical devices, such as blood pressure cuffs
                      and stethoscopes, these basic tools would not have been available onsite.
                      Many officers personally incurred mission-related expenses and some were
                      not reimbursed promptly, which could affect future deployments
                      During the response to Hurricanes Katrina and Rita, just 62 percent of
                      deployed officers had Federal Government travel credit cards, and
                      56 percent of the officers reported that they personally paid for
                      mission-related expenses. The most common items included food, cell
                      phone bills, ground transportation, and supplies, with the amounts
                      ranging from $10 to almost $2,700. Many expenses were not
                      reimbursed promptly—29 percent of officers were repaid more than
                      3 months after they submitted vouchers for the expenses, and, at the
                      time of our survey, 16 percent said they had not been repaid. Half the
                      officers in our survey said that not being reimbursed for mission-related
                      expenses would create a significant barrier to deployment. Agency
                      representatives agreed that the failure to promptly reimburse officers
                      could affect their ability to deploy to future public health emergencies.




    OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   13
Δ   R E C O M M E N D A T I O N S                                                  





                  The Corps currently is undergoing a substantial transformation that
                  may address many of the issues it encountered in response to
                  Hurricanes Katrina and Rita. In so doing, the Corps should address
                  and resolve the problems identified in this report. We recommend that
                  the Commissioned Corps:
                  Institute More Effective Training for Corps Officers
                  Improved training is a major focus of the Corps’ transformation efforts.
                  As the Corps develops its training program, it should implement more
                  hands-on focused training and rely less on computer-based modules.
                  The Corps should seek funding that would be used to grant officers time
                  away from their agency jobs to train for public health response.
                  Improve the System Used To Contact Officers for Deployment
                  Although the Corps maintains a variety of contact information for its
                  officers, many requests to deploy were received significantly after they
                  were made. More than half of the officers contacted for Hurricanes
                  Katrina and Rita said that the methods used to contact them were not
                  ideal. The Corps should develop a system to quickly and reliably
                  contact officers for deployment.
                  Work With the Office of the Assistant Secretary for Preparedness and
                  Response To Streamline Deployment-Related Travel
                  Corps officers, leadership, and agency representatives believe that the
                  travel system used during the hurricanes caused delays in reaching the
                  field for numerous officers. The Corps should work with ASPR to
                  improve the current system, or acquire a new one, so that officers can be
                  deployed efficiently and rapidly.
                  Stagger Deployments To Ensure Continuity of Operations
                  Numerous respondents reported that the Corps had difficulty keeping
                  experienced officers in the field. The Corps’ standard 2-week
                  deployment contributed to this problem. To counter this, some officers
                  voluntarily extended their tours, but a more systematic approach is
                  needed for long deployments. The Corps should consider staggering
                  deployments to mitigate the loss of experience as officers end their
                  tours.




OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   14
R   E C O        M M E N D A T            I O N       S


                      Improve Its Ability To Coordinate Mission Assignments and
                      Communications in the Field
                      Confusion over mission assignments led to less than optimal response in
                      some instances. Although poor travel logistics contributed to the
                      problem, Corps management and ASPR also lacked an effective means
                      to position and track officers in the field. The Corps should work with
                      ASPR to develop more effective systems to ensure that officers arrive
                      when and where they are needed with a clear understanding of their
                      responsibilities. The systems should be flexible enough to respond as
                      needs change. The Corps also should work with ASPR to expand the
                      variety of communications equipment issued to Corps officers to ensure
                      that they can effectively communicate with leadership.
                      Ensure That All Deployable Officers Have Federal Government Travel
                      Credit Cards
                      According to our survey, 38 percent of the officers deployed in response
                      to Hurricanes Katrina and Rita did not have Federal Government travel
                      credit cards21 and more than half personally incurred mission-related
                      expenses. All deployable officers should have official Government travel
                      credit cards with which to make mission-related purchases. The Corps
                      should work with ASPR to review procedures for reimbursing officers
                      for mission-related expenses incurred during deployments to ensure
                      that appropriate and prompt reimbursements are made.


                      AGENCY COMMENTS
                      The Assistant Secretary for Health agreed with the Office of Inspector
                      General’s (OIG) recommendations for improving the Corps’ response to
                      public health emergencies. As part of the Corps’ comprehensive
                      transformation process and its efforts to improve OFRD’s practices, the
                      Corps is currently addressing OIG’s recommendations.



                      21 Government-issued travel credit cards are issued and billed to Government employees for
                      authorized official business expenses associated with temporary duty travel, including cash
                      travel advances. Use of the Government-issued travel credit card is governed by General
                      Services Administration (GSA) travel regulations and accompanying travel policies issued
                      by the respective Government employer agency. GSA offers courses on the proper use of
                      Government-issued travel credit cards. Government-issued travel credit cards differ from
                      International Merchant Purchase Authorization Cards (IMPAC). An IMPAC is used by
                      cardholders to procure items for their respective components. However, the cardholder is
                      not personally billed. Use of an IMPAC is governed by Federal Acquisition Regulations and
                      accompanying policies issued by the respective Government employer agencies.



    OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE    TO   H U R R I C A N E S K AT R I N A   AND   R I TA   15
R   E C O         M M E N D A T            I O N        S


                     Specifically the Corps is developing more effective deployment-related
                     training programs for officers, improving contact and communication
                     mechanisms for officer deployments, and revamping its travel systems
                     in support of deployments. The Assistant Secretary for Health stated
                     that the OIG’s recommendations will assist his office, working in
                     collaboration with ASPR, in its efforts to continuously improve the
                     Department’s response to public health emergencies. The Assistant
                     Secretary for Health’s comments are included in their entirety in
                     Appendix F.




OEI-09-06-00030      THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   16
A    P   P E N D           I X        A
Δ        A P P E N D I X                           ~     A
                                                         B      



                   Commissioned Corps Employer Agencies and Professional
                   Categories


                 Corps Officer Employers                                                Corps Professional Categories

    Department of Health and Human Services                                                                              Dentist

                       Office of the Secretary                                                                          Dietitian

           Agency for Healthcare Research and Quality                                                                   Engineer

         Agency for Toxic Substance and Disease Registry                                                      Environmental Health

            Centers for Disease Control and Prevention                                                           Health Services

            Centers for Medicare & Medicaid Services                                                                      Nurse

                  Food and Drug Administration                                                                         Pharmacist

          Health Resources and Services Administration                                                                  Physician

                        Indian Health Service                                                                           Scientist

                   National Institutes of Health                                                                        Therapist

    Substance Abuse and Mental Health Services Administration                                                          Veterinarian

               Office of Public Health and Science

                      Program Support Center

                      External Agencies

                      Federal Bureau of Prisons

    District of Columbia Commission on Mental Health Services

                Environmental Protection Agency

            U.S. Citizenship and Immigration Services

         National Oceanic and Atmospheric Administration

                        National Park Service

                          U.S. Coast Guard

                       U.S. Marshals Service

                  U.S. Department of Agriculture




    OEI-09-06-00030          THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA                  17
Δ   A P P E N D I X                         ~      B       


                  Commisioned Corps Management Structure
                      Office of Commissioned Corps Force Management
                      The Office of Commissioned Corps Force Management reports directly to
                      the Assistant Secretary for Health.22 The office became operational on
                      April 18, 2004.23 It establishes performance standards and measurements
                      for the Commissioned Corps’ (Corps) operations.
                      Office of the Surgeon General
                      The Office of the Surgeon General reports to the Assistant Secretary for
                      Health with respect to the administration of Corps operations. The
                      Surgeon General provides leadership and management oversight for the
                      Corps’ involvement in Department of Health and Human Services
                      emergency preparedness and response activities.24
                             •    Office of Commissioned Corps Operations
                                  The Office of Commissioned Corps Operations (OCCO) carries
                                  out the day-to-day management and administration of major
                                  Corps operational functions. The OCCO recruits Corps
                                  personnel, oversees Corps personnel matters, and advises the
                                  Assistant Secretary for Health and the Surgeon General on
                                  matters related to Corps operations.25
                             •    Office of Force Readiness and Deployment
                                  The Office of Force Readiness and Deployment (OFRD) is also
                                  located within the Office of the Surgeon General. The OFRD
                                  administers deployments to a variety of situations, including
                                  public health challenges that exceed the capabilities of local,
                                  State, or operating division resources; public health requirements
                                  under the national response plan;26 or declared emergencies.27

                      22“Office of Commissioned Corps Force Management.” Available online at 

                      http://dcp.psc.gov/OCCFM.asp. Accessed December 9, 2005. 

                      23   Ibid. Accessed December 27, 2005. 

                       U.S. Department of Health and Human Services, “About the Office of the Surgeon

                      24

                      General.” Available online at http://www.surgeongeneral.gov/aboutoffice.html. Accessed 

                      December 9, 2005.    

                      25“Office of Commissioned Corps Operations.” Available online at
                      http://dcp.psc.gov/occo.asp. Accessed December 9, 2005.
                      26“National Response Plan,” U.S. Department of Homeland Security. Available online at
                      http://www.dhs.gov/dhspublic/interapp/editorial/editorial_0566.xml. Accessed
                      December 9, 2005.
                      27 Office of Force Readiness and Deployment, “Essentials.” Available online at
                      http://oep.osophs.dhhs.gov/ccrf/ccrf_essentials.htm#BACKGROUND. Accessed
                      December 12, 2005.



OEI-09-06-00030       THE COMMISSIONED CORPS’ RESPONSE    TO   H U R R I C A N E S K AT R I N A   AND   R I TA   18
Δ   A P P E N D I X                    ~       C        


                  Commissioned Corps Standards of Readiness as of October 2005


                     A. Health and Safety Standards

                         i.   Physical examination and medical history

                         ii. Immunizations

                         iii. Height and weight reporting

                     B. Physical Readiness Standards

                         i.   Physical fitness standards

                         ii. Annual physical fitness tests

                     C. Training and Professional Competency Standards

                         i.   PHS Commissioned Corps Readiness Training Modules (12)

                         ii. Basic Life Support

                         iii. Professional Competency

                         iv. Uniforms




OEI-09-06-00030      THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   19
           Δ            A P P E N D I X                         ~         D

                           ESF #8 Medical Action Request Process (ARF)
                                                                    Identify need
                                                                                                                                           ESF #8/PHS
                                                                                                                                            does not
                                                                                                                                           generate an
                      State liaison to ESF #8                  State local EOC or                                                             ARF
                           for personnel                         health official



                                                                  Director DHH

                       ESF #8 State LNO

                                                                                                      Assign State # (different from
                                                                                                       JFO and ARF#) and create
                                                                  State E Team
                                                                                                        E team resource request
1. Research & discuss with State authorities &
   ESF #8
2. Match requests with available resources
3. Create ARF; forward to DHH                                                                                      ARF signed by approved State
4. Communicate with ESF #8                                     EOC State authority
                                                                                                                           authority only
5. Request State E-Team copy & file




                          FEMA approves                       FEMA Processes ARF                                                     FEMA
JFO
                                                                                                                                  disapproves




                                                                                                                                     Communicate with
                  ESF #8 finance/admin                                               Sent to SOC for                                ESF #8 State liaison
                                                     Signed/reviewed/
                                                                                         action                                      ESF #8 finance &
                                                      tasked by Ops
                                                                                                                                    admin (constant and
                                                                                                                                         ongoing)




  Source: CAPT (S) Debra Scott, United States Public Health Service Commissioned Corps, September 2005. Used with permission.
  NOTES:
  “EOC” refers to “Emergency Operations Center”

  “LNO” refers to “State Liaison Officer.”

  “JFO” refers to “Joint Field Office”

  “SOC” refers to “Secretary’s Operational Center”

  “State E Team” refers to “State Emergency Team”




                  OEI-09-06-00030            THE COMMISSIONED CORPS’ RESPONSE       TO   H U R R I C A N E S K AT R I N A   AND   R I TA                   20
  Δ          A P P E N D I X                           ~     E



                                        Statistical Confidence Intervals

                     Corps Officer Characteristic                                       n         Point Estimate            95% Confidence Interval

Deployed officers who met readiness requirements                                       196                          95.6%              93.0% to 98.3%
Deployed officers who stated that meeting readiness requirements
                                                                                       196                          70.2%              63.7% to 76.6%
improved performance
Officers who spend more than 15 hours per month meeting readiness
                                                                                       330                          27.6%              22.5% to 32.7%
requirements
Officers for whom meeting readiness requirements creates a significant
                                                                                       330                          12.4%              8.46% to 16.3%
hardship
Deployed officers who said training was not adequate                                  196                           36.1%             29.4% to 42.8%
Deployed officers who were familiar with CONOPS                                        196                          37.2%             30.2% to 44.1%
Deployed officers who were familiar with ESF #8                                        196                          60.2%              53.3% to 67.1%
Nondeployed officers who received deployment requests                                  330                          17.4%              11.0% to 23.7%
Nondeployed officers who couldn’t respond because of agency
                                                                                       134                          55.9%              36.5% to 75.4%
responsibilities
Officers who received the requests to deploy more than 12 hours after
                                                                                       330                          46.0%              38.6% to 53.4%
they were sent
Officers who received the requests to deploy more than 72 hours after
                                                                                       330                          12.7%              7.27% to 18.2%
they were sent
Officers who received the requests to deploy by other than optimal means               330                          54.5%              47.7% to 61.4%
Officers for whom the personal cell phone would have been the optimal
                                                                                       330                          28.3%              22.1% to 34.5%
means of contact
Officers contacted by personal cell phone                                              330                          8.68%             4.92% to 12.4%




        OEI-09-06-00030         THE COMMISSIONED CORPS’ RESPONSE    TO   H U R R I C A N E S K AT R I N A   AND   R I TA                  21
     A   P P      E    N    D   I    X      E
  Δ           A P P E N D I X                          ~       E



                                          Statistical Confidence Intervals (continued)

                      Corps Officer Characteristic                                         n         Point Estimate            95% Confidence Interval

Deployed officers who left more than 48 hours after receiving the requests
                                                                                          196                          49.5%              42.4% to 56.6%
to deploy
Deployed officers who left more than 72 hours after receiving the requests
                                                                                          196                          29.2%              22.4% to 36.1%
to deploy
Officers deployed to the Gulf Coast who said their assignments were not
                                                                                          164                          37.0%              29.5% to 44.5%
clearly communicated
Officers deployed to the Gulf Coast who said they could not immediately
                                                                                          164                          9.67%              5.46% to 13.9%
begin work because of confusion over assignments
Officers deployed to the Gulf Coast who said they were initially sent to the
                                                                                          164                          15.4%              10.2% to 20.5%
wrong locations
Deployed officers who said their assignments were appropriate                            196                           86.9%             81.9% to 91.9%
Deployed officers who said they were satisfied with the security of
                                                                                          196                          81.8%              76.7% to 87.1%
themselves and of supplies
Deployed officers who said they were adequately equipped                                  196                          78.1%             72.6% to 83.6%
Officers who said the lack of reimbursement would significantly affect their
                                                                                          330                          50.2%              43.2% to 57.2%
ability to deploy
Deployed officers who paid for mission-related expenses from personal
                                                                                          196                          56.2%              49.2% to 63.2%
accounts
Deployed officers who had Government travel credit cards                                  196                          62.4%             55.5% to 69.3%
Deployed officers reimbursed more than 3 months after they incurred the
                                                                                          196                          28.8%              19.8% to 37.7%
expenses
Deployed officers who had not been repaid at the time of the survey                       196                          15.8%             9.18% to 22.5%




         OEI-09-06-00030            THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA                  22
..        A P PEN 0                                     x                  F



                                           Agency Comments




                           DEPARTMENT OF HEALTH AND HUMAN SERVICES Office Of the Secretary
 (A.-'t..
  ~.~~~
     :.....ia (J                                                                                       Assistant Secretary tor Heàlth
                                                                                                 Office of Public Health and Scienc.e
                                                                                                            Washington D,C. 20201
                    JAN 3 0 2007


                   TO: Inspector General, Deparent of                       Health and Human Services

               FROM: Assistat Secret' fOi" Health
               SUBJECT: Inspector General's Report (OEI-09-06-00030) -INFOllATION

               I am writig to express my appreciation for your repqrt entitled ''Te Commissioned
               Corps' Response to Hurcanes Katrna and Rita" (OEI-09'06-00030). The evaluation
               conducted by your sta included interiews with    a strtified random sampling of offcers,
               review of our databases, and interiews with members of our Deparent and those state
               heath officials we served durg the response. From the design                     as well as the findings
               and conclusions, it is evident that much careful and thoughtf consideraton was
                                                                                                                  given
               thoughout the evaluation. I concur with the              fidigs and the   recommendaions          as to how
               the Commissioned Corps of          the U.S. Pulic Health Serce (Corps) can improve its
               futUe responses to public health emergencies.

               The recommendations. of the report mirror many of the prepardness and response areas
               we are addressing as       par of the business practice improvements with the Offce of
               Force Readiness and Deploymentand our comprehensive Trafonnation effort. We are
               developing more effective deployment-related trainng program for our offcers,
               improving contact/communcation                mechansms with offcers when deployments are
               necessar, and revamping our travel systems in support of deployments. Our Corps'
               Trasfonnation will greatly enhance our ability to respond effectively to public health
               emergencies by developing a tota force managenient approach to officer selections,
               training, readiness and assignents. The tranfonned Corps wil be better able to deploy
               offcers with the appropriate skill sèts required to respond to the wide aray of public
               health emergencies our Nation will face.

               The recommendations contained withn your report will assist us, workig in
               collaboration with the Assistat Secretay for Preparèdess and Response, in our goal of .
                                                                  public health eiergencies and




                                                                                   .~-
               continuously improving our Deparent's response to
               assurng that the Corps remains the Deparent's premier and primary deployable asset.
               Than you for your Offce's dilgence and timeliness in the preparation of                   this report.



                                                                            -= - John O. Agwobi -



                                                            U.S. Public Health Service




OE 1-09-06-00030                  THE COMMISSIONED CORPS' RESPONSE TO HURRICANES KATRINA AND RITA                                       23
A P P E N D I X            E
                           ~      A
Δ    A C K N O W L E D G M E N T S                                                     


                   This report was prepared under the direction of Paul A. Gottlober,
                   Regional Inspector General for Evaluation and Inspections in the San
                   Francisco regional office, and Deborah W. Harvey, Assistant Regional
                   Inspector General. Other principal Office of Evaluation and Inspections
                   staff who contributed include:

                   Michael Henry, Project Leader
                   Scott Hutchison, Program Analyst

                   Rob Gibbons, Program Analyst

                   Mark Richardson, Program Specialist

                   Ayana Everett, Program Specialist

                   Elise Stein, Director, Public Health and Human Services Branch

                   Barbara Tedesco, Mathematical Statistician




 OEI-09-06-00030   THE COMMISSIONED CORPS’ RESPONSE   TO   H U R R I C A N E S K AT R I N A   AND   R I TA   24
